August 30, 2010

LORRAINE G. CASTELLANO
ACTING DISTRICT MANAGER, TRIBORO DISTRICT

SUBJECT: Audit Report –                          Business Mail Entry Units Mail
         Verification Procedures (Report Number MS-AR-10-005)

This report presents the results of our self-initiated audit of business mail verification
procedures at the                                 Business Mail Entry Units (BMEUs)
(Project Number 10RG003MS000). Our objective was to determine whether business
mail verification procedures were in place and effective at the
           BMEUs. We selected these BMEUs in the Triboro District based on factors
evaluated by the U.S. Postal Service Office of Inspector General’s (OIG) Performance
and Results Information Systems (PARIS) models, fiscal year (FY) 2009 commercial
revenue. The                                BMEUs generated 71 percent of the Triboro
District’s $92.2 million of revenue. These two BMEUs were not included in the statistical
sample we selected in support of the audit on the U.S. Postal Service’s financial
statements and for the Sarbanes-Oxley Act (SOX) of 2002.1 Additionally, as of July 19,
2010, these sites were not included in the Postal Service’s review of mail acceptance
and verification procedures as part of its SOX responsibilities.2 See Appendix A for
additional information about this audit.

Business Mail Entry is one of the most significant revenue sources for the Postal
Service. The Postal Service has established mail verification procedures to determine
whether mailers prepare their mailings in accordance with required Postal Service
standards and pay the correct amount of postage.

Conclusion

Business mail verification procedures were in place and effective at the
BMEU; however, business mail verification procedures were not in place and effective
at the               BMEU. We identified multiple mail verification issues at the
       BMEU and we identified an issue at the           BMEU related to the Mailing
Evaluation and Readability Lookup INstrument (MERLIN) Sample Selection Matrix.


1
 We identified similar mail verification issues at other BMEUs as part of our financial statement and SOX audits.
2
 The Postal Accountability and Enhancement Act requires the Postal Service to comply with certain provisions of
SOX.
                              Business Mail Entry Units                                                 MS-AR-10-005
    Verification Procedures


                    BMEU

Business mail verification procedures were not in place and effective at the
        BMEU. Specifically, mail acceptance employees did not perform required in-
depth presort verification procedures such as bundle, label, sortation, and
miscellaneous error verifications. Mail acceptance employees must perform in-depth
verification procedures when PostalOne! prompts them to do so, when problems are
detected during initial verification or when the mail acceptance employee deems it
necessary.3

Unit employees recorded in PostalOne! that mail was accurately submitted without
conducting the required presort verification procedures and calculations. Specifically,
employees did not use Postal Service (PS) Form 2866, Presort Verification Record, as
required4 at non-MERLIN sites.5 PS Form 2866 contains instructions for performing
in-depth verification procedures, recording instances where mail was not prepared in
accordance with Postal Service standards, and calculating the error percentage.6 These
conditions occurred because unit employees believed that the inception of the
Performance-Based Verification (PBV) program7 in April 2009 negated the requirement
to use PS Forms 2866.

The Postal Service uses in-depth verification procedures to detect errors in mailings. If
more than 5 percent of the mail verified is not prepared in accordance with Postal
Service standards, mailers must either correct the mailings or pay additional postage.
When employees do not follow required mail verification procedures, the Postal Service
has reduced assurance that mailings meet Postal Service standards and that mailers
pay the appropriate postage. Additionally, entering unsubstantiated results in
PostalOne! negatively impacts the integrity of the PBV program by decreasing the
likelihood that PostalOne! will prompt future in-depth verifications of mailings when it
should. For standard mail letters and standard mail flats presented between April 1,
2009, and March 31, 2010, the unit has allowed business customers $18.3 million in
workshare discounts8 without conducting proper in-depth mail verification procedures.
We estimate that this amount could have grown to $36.7 million over the next 2 years
had the unit not taken corrective action based on our audit. We consider the $55 million
to be revenue at risk, a non-monetary impact.




3
  Handbook DM-109, Business Mail Acceptance, Section 3.4, March 2010.
4
  DM-109, Section 3-5.4.
5
  The               BMEU is considered a non-MERLIN site because it does not have a MERLIN machine.
6
  Percentage of mail not prepared in accordance with Postal Service standards.
7
  PBV generates the verification frequency and sample size to be used for verification for each mail preparer based
on their past performance and the size of their mailings.
8
  Worksharing refers to rate discounts provided to mailers for presorting, pre-barcoding, handling or transporting mail.




                                                           2
                               Business Mail Entry Units                    MS-AR-10-005
    Verification Procedures


We recommend the acting district manager, Triboro District, instruct
BMEU personnel to:

1. Use Postal Service Form 2866, Presort Verification Record, and record actual
   results in PostalOne!.

               BMEU

Mail verification procedures were in place and effective at the         BMEU.
However, we noted a            BMEU mail acceptance employee did not use the
sample selection matrix to select tray samples for verification on MERLIN. Although the
mail acceptance employee generated the sample selection matrix, he did not select
sample trays corresponding to the tray numbers identified in the matrix.9 Instead the
mail acceptance employee judgmentally selected sample trays from the top of one of
two pallets because it was more convenient than opening the shrink-wrap and selecting
the required trays.

When employees accept a mailing based on testing a limited sample, it is important that
it represents the entire mailing. Randomizing the sample selection increases the
likelihood that tested mailpieces are representative of the entire mailing. When
employees do not follow required sample selection procedures during mail verification,
the Postal Service has reduced assurance that mailings meet Postal Service standards
and that mailers pay the appropriate postage. We consider the $2,241 of worksharing
discounts for this mailing to be revenue at risk, a non-monetary impact.

We recommend the acting district manager, Triboro District, instruct         BMEU
personnel to:

2. Perform mail verification sampling in accordance with the sample selection matrix.

Management’s Comments

We met with management on August 13, 2010, regarding these issues. Management
agreed with the findings and recommendations, stated that they instructed appropriate
                            personnel to comply with mail verification procedures, and
chose not to provide written comments.

Evaluation of Management’s Comments

OIG considers management’s actions responsive to the report recommendations.




9
    DM-109, Section 3-6.1.1.




                                                           3
                          Business Mail Entry Units                           MS-AR-10-005
Verification Procedures



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, director, Sales
and Service, or me at 703-248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
for Revenue and Systems

Attachment

cc: Steven J. Forte
    Pritha Mehra
    Jordon M. Small
    Steven R. Phelps
    Corporate Audit and Response Management




                                                      4
                           Business Mail Entry Units                                   MS-AR-10-005
 Verification Procedures


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service established the mail verification process to ensure mailers prepare
mailings in accordance with standards for the rate at which the mailing is presented.10
Required presort verifications are summarized as follows:

Initial Verification — Acceptance employees must perform an initial verification on all
submitted mailings, which includes reviewing postage statements, fund verifications,
mailpiece examination, and document review. Mailings that pass are cleared for
processing. If an acceptance employee identifies errors during initial verification, the
employee must perform an in-depth verification and advise the customer of any errors
and options for correcting the mailings. The mailer can either rework the mailing or pay
additional postage.

In-Depth Verification — Acceptance employees must perform in-depth verification
procedures on any mailings when the PBV feature in the PostalOne! system requests it.
When the acceptance employee deems it necessary or when the initial verification or
cursory review detects problems, these procedures may also be performed as voluntary
in-depth verifications.11

In-depth verification includes examining mailpieces for weight, bundle preparation,
barcode quality, automation compliance, quantity, and presort verification. The in-depth
verification provides a graduated verification schedule for mailers who consistently
provide well-prepared mailings. These mailers are moved to a less frequent in-depth
verification cycle.

PBV — The PBV approach generates the verification frequency and sample size to be
used for verification for each mail preparer based on their past performance and the
mailing size. This approach focuses verifications on mail preparers that submit
inadequately prepared mail, while reducing the number of verifications performed for
mail preparers who consistently submit adequately prepared mail. The reduction in the
total number of verifications requested allows acceptance employees to better support
verification activities and provide better customer service.

Presort Verification — A presort verification must be performed:

          For mailings with errors identified in any initial verification step, or if scheduled by
           PostalOne! PBV.




10
     DM-109.
11
     DM-109 Section 3-4.




                                                       5
                            Business Mail Entry Units                                              MS-AR-10-005
 Verification Procedures


      When PostalOne! schedules an in-depth verification. Acceptance employees
        must use MERLIN when PBV requests a presort verification. The results are
        recorded automatically in MERLIN reports.12

For non-MERLIN sites, sites where MERLIN is unavailable or for mail that is not
compatible with MERLIN, employees must manually record the results of a presort
verification on PS Form 2866, and all information must be reflected in PostalOne!

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether business mail verification procedures were in
place and effective at the                               BMEUs. Both units are in the
Triboro District of the Northeast Area. This is not one of the statistically selected
financial installation audits we conduct in support of the audit of the Postal Service’s
financial statements and Sarbanes-Oxley.

To accomplish our objective, we judgmentally selected two BMEUs in the Triboro
District based on factors evaluated by the OIG PARIS models and FY 2009 operating
commercial revenue. In FY 2009 the Triboro District ranked among the most at risk in
the Northeast Area. The                             BMEUs generated 71 percent of
the Triboro District’s $92.2 million of revenue.

We reviewed guidance for business mail acceptance and verification procedures and
interviewed key personnel at the selected BMEUs to gain an understanding of existing
processes and management controls. We verified two judgmentally selected mailings
and followed existing quality control procedures to determine the extent of revenue
protection at each selected location. Finally, we observed mail acceptance, verification,
and clearance processes; and reviewed postage statements and other supporting
documentation.

We conducted this audit from October 2009 through August 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We assessed the reliability of computer-
generated data by verifying computer records to source documents. We discussed our


12
   DM-109, Section 3-5.
13
   In FY 2009 the          BMEU generated $39.6 million in revenue and the                BMEU generated $26
million in revenue.
14
   We obtained FY 2009 revenue for the            BMEU (unit finance number 3509950120) and                   BMEU
(unit finance number 3581700131) from the Application System Reporting (ASR) report in the Accounting Data
Mart. ASR reports include data on verifications performed on business mailings and the details associated with the
mail preparation quality.




                                                        6
                          Business Mail Entry Units                          MS-AR-10-005
Verification Procedures


observations and conclusions with management officials on August 13, 2010, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

The U.S. Postal Service OIG did not identify any prior audits or reviews related to these
                                     two BMEUs.




                                                      7
                              Business Mail Entry Units                                                 MS-AR-10-005
 Verification Procedures


                             APPENDIX B: NON-MONETARY IMPACTS

                                           Non-Monetary Impacts

                  Finding Impact                          Category                       Amount
                                                                      15
                       1                       Revenue at Risk             $55,027,647
                       2                        Revenue at Risk                                  $2,241


                           TOTAL                                                          $55,029,888

Since April 1, 2009, the               BMEU has allowed business customers $18.3
million in workshare discounts for standard mail letters and standard mail flats without
conducting proper in-depth mail verification procedures. We estimate that this amount
could have grown to $36.7 million over the next 2 years had the unit not taken corrective
action based on our audit. We consider the $55 million to be revenue at risk, a
non-monetary impact.

The            BMEU acceptance employee did not use the sample selection matrix for
selecting tray samples to be verified on MERLIN and, instead, judgmentally selected
sample trays from the top one of two pallets because it was more convenient. We
consider the $2,241 of worksharing discounts for this mailing to be revenue at risk, a
non-monetary impact.




15
  Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
the Postal Service currently provides).




                                                           8
